No. 19-1130

 

IN THE
Supreme Court of the United States

DALE DANIELSON, ET AL.,
Petitioners,
v.

JAY ROBERT INSLEE, IN HIS OFFICIAL CAPACITY AS
GOVERNOR OF THE STATE OF WASHINGTON, ET AL.,

Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

CERTIFICATE OF SERVICE

I, P. CASEY PITTS, a member of the Bar of this
Court, hereby certify per Supreme Court Rule 29.5(b) and
the parties’ agreement to accept electronic service, that on
May 11, 2020, a true and correct electronic copy of the Brief
in Opposition of Respondent Washington Federation of State
Employees, AFSCME Council 28, AFL-CIO in Danielson, et
al. v. Inslee, et al., No. 19-1130, was sent, via electronic mail,
to the following e-mail addresses:

Jonathan F. Mitchell
Mitchell Law PLLC
111 Congress Avenue
Suite 400

Austin, TX 78701
(512) 686-3940
jonathan@mitchell.law

Counsel for Petitioners Dale Danielson, et al.
Alicia Orlena Young

Washington Office of the Attorney General
1125 Washington Street, SE

PO Box 40100

Olympia, WA 98504

360-586-2697

alicia.young@atg.wa.gov

Counsel for Respondents Governor Jay Inslee; David
Schumacher, Director, OFM

I further certify that all parties required to be served
have been served.

Dated: May 11, 2020

Ps Kae Pitts

ALTSHULER BERZON LLP

177 Post Street, Suite 300

San Francisco, CA 94108

(415) 421-7151

cpitts@altber.com

Counsel for Respondent Washington
Federation of State Employees, AFSCME
Council 28, AFL-CIO
